           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       TITLE II UNDERPAYMENTS
            FOR DECEASED
            BENEFICIARIES

    July 2004      A-03-03-13014




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                              SOCIAL SECURITY
 MEMORANDUM
 Date:     July 21, 2004                                                                  Refer To:

 To:       The Commissioner

 From:     Acting Inspector General

Subject:   Title II Underpayments for Deceased Beneficiaries (A-03-03-13014)


           OBJECTIVE

           Our objective was to determine whether the Social Security Administration (SSA) was
           capturing the Social Security numbers (SSN) of individuals claiming Title II
           underpayments after a beneficiary had died to ensure (1) the payment was made to an
           appropriate party and (2) required information was shared with the Internal Revenue
           Service (IRS).

           BACKGROUND
           Death underpayments occur when an accrued Title II1 benefit amount has not been paid
           or a final benefit payment that was issued to a deceased beneficiary is returned. The
           death underpayment can be claimed by third parties such as auxiliary beneficiaries,2 or
           individuals who are entitled to the underpayment.3

           During Calendar Years (CY) 2001 and 2002, SSA processed 103,745 death
           underpayments outside of the Title II system and used the manual One-Check-Only




           1
            Title II is the Old-Age, Survivors and Disability Insurance (OASDI) program that provides retirement
           benefits to insured individuals who have reached the minimum retirement age, survivors’ benefits to
           dependents of insured wage earners in the event the family wage earner dies, and disability benefits to
           disabled wage earners and their families.
           2
            Auxiliary beneficiaries are children, widows, widowers, spouses, and parents who receive OASDI
           benefits based on another wage earner’s Social Security record.
           3
            These individuals include relatives or legal representatives who are not receiving benefits based on the
           deceased beneficiary’s Social Security record.
Page 2 - The Commissioner

(OCO) and Single Payment System (SPS) to make these payments.4 Prior to
May 2002, SSA processed death underpayments through the OCO payment system
until it was replaced with SPS. The change to SPS occurred based in part on the
results of a prior Office of the Inspector General audit,5 which identified several
vulnerabilities and internal control weaknesses with the OCO payment system. The
SPS was designed to reduce the number of inputs required for payments made outside
of the Title II system. Further, it was created to ensure the timeliness of payments,
prevent duplicate and erroneous payments, and document management information.

SCOPE AND METHODOLOGY
Our audit focused on death underpayments issued during CYs 2001 and 2002 and
processed through the OCO and SPS payment systems. We tested the death
underpayment data for accuracy and completeness and determined it to be sufficiently
reliable to accomplish our objectives except as disclosed in the findings of this report.
We provide a full description of our scope and methodology in Appendix D and our
sampling methodology in Appendix E. The SSA entities reviewed were the Offices of
the Deputy Commissioner for Systems and Operations. We conducted our audit from
July 2003 to February 2004 in Philadelphia, Pennsylvania in accordance with generally
accepted government auditing standards.

RESULTS OF REVIEW
Our review of death underpayments processed outside of the Title II system during
CYs 2001 and 2002 found that 51 percent were processed without capturing payees’6
SSNs. This occurred because (1) SSA does not require the payee’s SSN to issue
death underpayments, and (2) when SSNs are known, SSA does not always enter them
into its payment systems when processing the payments. Due to the omission of the
payees’ SSNs, approximately $73 million in Social Security payments were reported to
the IRS by SSA without the appropriate SSN. Although SSA processed a substantial
number of death underpayments without the payees’ SSNs, based on our review of
100 randomly sampled death underpayments, the payments were paid to the
appropriate next of kin or legal representative. However, SSA could have located, in
most cases, the payees’ SSNs within the Agency’s own records. Based on our sample

4
  Death underpayments processed within the Title II system are done so through the Manual Adjustment
Credit and Award Data Entry (MACADE) system and are paid to auxiliary beneficiaries. Our audit did not
focus on payments processed through MACADE because we believe the risk is greater for payments
processed outside of the Title II system.
5
 Review of Internal Controls Over the Processing of One-Check-Only Payments, (A-05-97-61001),
November 1999. This report is discussed in detail in Appendix B.
6
  In this report, we define payees as relatives or legal representatives who are not receiving benefits on
the deceased beneficiary’s Social Security record.
Page 3 - The Commissioner

results, we project that SSA could have located the SSNs for 97 percent of the death
underpayments processed without the payees’ SSNs. Finally, we found death
underpayments were not always coded properly within SSA’s systems and dates of
death of primary beneficiaries were not recorded on their Numident records.

UNDERPAYMENTS PROCESSED WITHOUT THE SSNs

During CYs 2001 and 2002, SSA processed 103,745 death underpayments totaling
about $135 million through the OCO and SPS payment systems, of which 51 percent
(52,858) were issued to payees without capturing their SSNs. We determined this by
reviewing the Payment History Update System (PHUS), which contains historical
records of Title II payment-related actions. PHUS showed the data field used to capture
the payee’s SSN was left blank when the payments were processed.

Generally, we found that SSA does not require payees to provide their SSN when
claiming a death underpayment. When SSA determines that a death underpayment is
due and it is not evident in SSA’s system who is entitled to receive the underpayment, a
notice is sent to the family of the deceased to determine the appropriate next of kin.
The notice requires that the next of kin provide proof of his/her relationship to the
deceased beneficiary such as certified birth and marriage certificates.7 However, the
notice does not request the next of kin to provide their SSN. It only requests that the
deceased beneficiary’s claim number be placed on the back of documents submitted as
proof of relationship.

Moreover, the Claim for Amounts Due in the Case of a Deceased Beneficiary
(SSA-1724 form) that is frequently used by payees to claim the death underpayment
includes a data field to capture their SSN, but the SSN is not mandatory for processing
the claim.8 The form allows them to either leave the field blank or write unknown. In
Fiscal Year 1998, the Center for Security and Integrity (CSI) within the Mid-Atlantic
Social Security Center (MATSSC) recognized this was a weakness and recommended
the form be revised to make the SSN mandatory. This revision would reduce the risk of
fraudulent payments and provide the IRS with a means to ensure that the payees report
the income. The CSI based its recommendation on an investigation of a SSA employee




7
 According to SSA’s Program Operations Manual Systems (POMS) GN 02301.055 Evidence –
Underpaid Person Deceased, claimants must provide proof of death, relationship (if exceeds $750 or
1 month's benefits), or appointment of a legal representative in estate cases to receive a death
underpayment.
8
  The SSA-1724 form is discussed in further detail in Appendix B and an example of the form is contained
in Appendix H.
Page 4 - The Commissioner

who fraudulently issued death underpayments to friends and family members using the
SSA-1724 form.9 We followed up with the Office of Income Security Programs,10 which
is responsible for implementing the recommendation, and were told that the SSA-1724
form had not been revised as of January 2004. The staff member stated that the form
would be revised in the near future but could not tell us when this would occur although
it has been over 5 years since CSI made its recommendation.

Furthermore, the OCO and SPS payment systems used to process the death
underpayments include a field to capture the payee’s SSN, but this field is optional.
SSA staff can leave the field blank and continue to process and issue a payment
although they received the payee’s SSN. In fact, the instructions for the SPS payment
system state that the payee’s SSN is only mandatory if the payee is receiving Social
Security Income payments.11

Tax Implications

The Social Security Benefit Statement (SSA-1099 form) is used to notify payees and the
IRS that SSA benefits received during the year may be taxable. The amount shown on
the SSA-1099 form is derived from the payments that appear on the PHUS records.
The payee’s SSN is required on the SSA-1099 form to ensure that the income is
properly reported to the IRS. For the 52,858 death underpayments, the
SSA-1099 forms that were issued to payees did not include their SSNs. Consequently,
approximately $73 million in Social Security payments were reported to the IRS by SSA
without the appropriate SSN.12 We contacted IRS management to confirm the
importance of the payee’s SSN on the SSA-1099 form and they concurred that without
the payee’s SSN, the IRS has no knowledge that the individual should be reporting
taxable income for a given tax year.




9
 In FY 1996, the CSI initiated an investigation of fraudulent death underpayments made by a benefit
authorizer at the MATSSC in Philadelphia, Pennsylvania. During the investigation, CSI discovered that
an employee had fraudulently processed at least 10 death underpayments through the manual OCO
payment system.
10
     This office was formerly known as the Office of Program Benefits.
11
     SSA’s POMS, section SM 00834.435, SPS Processing of the Miscellaneous Payment (MPAY) Screen.
12
  While we do not know what portion of these payments would be considered taxable income by the IRS,
a maximum of 85 percent of Social Security payments are subject to income tax.
Page 5 - The Commissioner

DEATH UNDERPAYMENT PAID TO THE APPROPRIATE PARTY

In our sample of 141 death underpayments13 totaling about $3 million that were
processed without the payees’ SSNs (see Table 1), we found that the payments were
paid to the appropriate next of kin or legal representative. This was determined by
reviewing evidence provided to SSA as proof of relationship to the deceased such as
birth, marriage, and death certificates, and legal documents appointing an individual as
the legal representative of the deceased beneficiary’s estate. Further, we reviewed
Numident14 and the Master Beneficiary Records (MBR)15 where the relationship
between payee and the deceased beneficiary had previously been established. For
example, in one case our review of the Numident and MBR records showed that a
$22,110 death underpayment was correctly paid to the mother of a minor child who was
receiving benefits under her father’s Social Security record. In addition, the MBR
showed the mother had been the representative payee for the deceased father who had
been receiving disability benefits.

                 Table 1: Summary of Sampled Death Underpayments
                   100 Sampled                     41 Sampled                 Total Sampled
                    Payments                        Payments                    Payments
                                                                           Total         Total
     Payment   Number of    Amount of     Number of       Amount         Number of     Amount of
     Systems   Payments     Payments      Payments      of Payments      Payments      Payments
 SPS                40      $ 38,338          17         $1,123,797          57       $1,162,135
 OCO                60      $104,151          24         $1,718,399          84       $1,822,550
      Total        100      $142,489          41         $2,842,196        141        $2,984,685

Furthermore, we determined that most (70 percent) of the sampled death
underpayments were issued because the deceased beneficiaries’ final benefit payments
were returned to the Agency the month of their death. For a complete list of the
reasons the 100 sampled death underpayments were issued see Appendix G.



13
  We selected a random sample of 100 death underpayments ranging from $1.00 to $49,999.99 and all
41 death underpayments for $50,000 and above. See Appendix E for more information about our
sampling methodology.
14
  The Numident is a record of identifying information (such as name, date of birth, date of death,
mother’s maiden name, etc.) provided by the applicant on his or her Application for Social Security
Number (Form SS-5) for an original SSN and subsequent applications for replacement SSN cards. Each
record is housed in the Numident Master File in SSN order.
15
  A MBR consists of information related to a beneficiary’s entitlement to OASDI benefits—SSA’s POMS,
section SM 00510.002.
Page 6 - The Commissioner

Locating Payees’ SSNs

Despite the fact that it appears that the sampled death underpayments were paid to the
appropriate parties, SSA could have located the payees’ SSNs within its own records.
Of our 100 randomly selected death underpayments, we were able to locate the payees’
SSNs for 97 of these payments by reviewing completed SSA-1724 forms or querying
SSA’s Alpha-Index File.16 For the remaining three payments, two payments related to
the estate of the deceased beneficiary and we were not able to locate the SSN for the
third payment. Based on our sample results, we project that SSA could have located
the SSNs for 97 percent (approximately 51,232) of the death underpayments processed
without the payees’ SSNs.17 The following is the results of our search.

     •   For 55 underpayments, the payees’ SSNs were located by querying the Alpha-
         Index File. The SSNs were missing because the payees did not include their
         SSNs on the SSA-1724 form or other documents submitted to SSA. These
         55 payments project to approximately 29,049 payments that could have been
         identified by querying the Alpha-Index File.

     •   For 42 underpayments, the SSNs were included on the SSA-1724 form.
         For example, in one case the parent of the deceased completed a SSA-1724
         form to claim a $24,509 death underpayment. The parent included her SSN on
         the SSA-1724 form but when the payment was processed through the OCO
         payment system, SSA staff failed to enter the SSN in the field used to capture
         this data. These 42 payments project to approximately 22,183 payments where
         the payees included their SSNs on the SSA-1724 form.

     •   For two underpayments, SSA should have used the deceased beneficiaries’
         SSNs since the payees were the legal representatives of the deceased
         beneficiaries’ estate. We did not project these payments to the population.

     •   For one underpayment, the SSN could not be located. However, we were able to
         determine based on the evidence provided to SSA that the underpayment was
         paid to the appropriate next of kin.




16
  The Alpha-Index File maintains identifying information of each SSN numberholder. The system allows
for the grouping together, in one code group, all surnames which have the same basic consonant sounds.
The Alpha-Index File is a useful tool that is available to SSA personnel who process death
underpayments.
17
   Our analysis of the 41 death underpayments produced similar results but we did not include the results
in our projection because they represented all payments that were $50,000 or more.
Page 7 - The Commissioner

Figure 1 is a graphic representation of the results for the 100 sampled death
underpayments.
                      Figure 1: Payees' SSNs Located within
                                   SSA's Records
                                (100 Sampled Death Underpayments)

                                                  2% 1%



                 42%



                                                                                       55%




                         Query Alpha-Index File           SSNs Included on SSA-1724 form
                         SSNs Not Required                Unable to Locate SSN


OTHER DISCREPANCIES FOUND WITH DEATH UNDERPAYMENTS

While reviewing death underpayments processed without capturing payees’ SSNs, we
discovered (1) 986 payments that appeared to have been incorrectly coded as death
underpayments and (2) 1,415 payments that were processed although the primary
beneficiaries’ dates of death were not recorded on SSA’s Death Master File (DMF).
To focus our analysis better, we reviewed these payments separately.

Possible Lump Sum Death Payments

SSA processed 986 payments totaling $251,430 that appear to have been incorrectly
coded as death underpayments. Our review of the PHUS records for 50 sample
payments found that all were actually lump sum death payments (LSDP). The LSDP is
a non-taxable payment of $255 payable to a surviving spouse or child who is eligible to
receive benefits under the deceased beneficiary’s Social Security record. The PHUS
records showed that initially SSA staff tried to process these payments as LSDPs, but
the payments were either returned because of incomplete addresses or cancelled.18
When SSA staff processed these payments for the second time, they incorrectly
entered the code used to process death underpayments. Furthermore, we found that
9 of the 50 sampled payments had been erroneously issued more than once. For three
payments, the LSDP was issued twice to the same family member because SSA staff
had overlooked the initial payment when processing the second payment. For six

18
     We were not able to determine why the payments were cancelled.
Page 8 - The Commissioner

payments, the LSDP was issued twice to different family members. These payments
were issued to both the spouse and child of the deceased and thus were not paid in
accordance to POMS.19 These erroneous payments may have been prevented if they
were properly coded.

Payments Processed with No Date of Death

SSA processed 1,415 death underpayments totaling about $1.8 million where the dates
of death of the primary beneficiaries were not included on the SSA’s DMF.20 When SSA
receives notification of a death (for a beneficiary or auxiliary beneficiary), it should be
recorded on the Agency’s Numident record and become part of the DMF. Therefore,
we reviewed the primary beneficiaries’ MBR records to determine their status and found
the following.

     •   For 734 death underpayments, the primary beneficiaries were deceased and
         their benefits had been terminated. However, the Numident records for
         10 sample payments did not include their dates of death. Therefore, we referred
         the 734 payments to SSA so that the Numident records could be updated with
         the primary beneficiaries’ death information.21

     •   For 521 death underpayments, the primary beneficiaries were currently receiving
         Title II benefits.22 Our detailed review of the MBR and other pertinent
         documents for 10 sample payments found (1) 5 payments were issued correctly
         based on the deaths of the auxiliary beneficiaries, (2) 2 payments were
         incorrectly coded as death underpayments and were actually refunds paid to the
         primary beneficiaries, and (3) 3 payments were incorrectly issued under another
         person’s Social Security record; however, when we reviewed the MBR and
         supporting documentation for the correct beneficiaries, we determined that the
         payments were valid and paid to the appropriate next of kin. We referred the
         five sample cases that were processed incorrectly to SSA for resolution.

19
  According to SSA’s POMS, section GN 02301.030, Underpaid Person is Deceased, payments should
be made in the following order of priority, (1) surviving spouse, (2) child, (3) parent, and (4) legal
representative. If there is more than one family member in the same priority, then the payment is divided
equally among each person.
20
  The DMF is national file that contains millions of death records that are derived from SSA’s Death, Alert
Control and Update System, which receives death data from external and internal sources.
21
  SSA’s POMS, section SM 00623.004, How to Correct Death Data When Only the NUMIDENT and/or
Death Alert is Incorrect.

22
 While we reviewed information related to these beneficiaries, we did not independently verify that they
were alive.
Page 9 - The Commissioner

     •   For 160 death underpayments, the payment status on the primary beneficiaries’
         MBR records showed they had not received any Social Security benefits. Our
         sample of 10 payments found that the death underpayments were generated
         based on the death of the auxiliary beneficiaries and that the primary
         beneficiaries had been deceased since before 1967.23

CONCLUSION AND RECOMMENDATIONS
Our review found that 51 percent of the death underpayments processed in CYs 2001
and 2002 did not include payees’ SSNs. Since SSA did not obtain the payees’ SSNs
for the death underpayments, approximately $73 million in Social Security payments
were reported to the IRS by SSA without the appropriate SSN. Although we found that
death underpayments were paid to the appropriate parties, SSA could have located
majority of the payees’ SSNs within its own records. Finally, we found SSA incorrectly
coded LSDPs in our sample as death underpayments and failed to record the dates of
the death of primary beneficiaries on their Numident records.

We recommend SSA:

     1. Require the collection of the SSN from all claimants of death underpayments to
        ensure taxable income is reported to the IRS by SSA.

     2. Ensure that the SSA-1724 form is revised to make the payee’s SSN a mandatory
        field and develop completion instructions in POMS.

     3. Ensure that the SPS payment system is revised to make the payee’s SSN a
        mandatory field.

     4. Educate benefit authorizers on the correct procedures for processing LSDPs and
        death underpayments.

     5. Make the necessary corrections for the payments that were referred during the
        audit.

AGENCY COMMENTS AND OIG RESPONSE
SSA concurred with all 5 recommendations, noting that the Agency is already revising
the SSA-1724 form and correcting the underpayments we referred. The Agency noted
that a maximum of 85 percent of Social Security payments not reported to the IRS
would be subject to income tax. We have adjusted the report to address this comment.

23
  Except in one case, the primary beneficiary died in September 2000 but the underpayment was
generated based on the death of the spouse who died in December 2001.
Page 10 - The Commissioner

Furthermore, SSA noted its concern that we were suggesting that the Agency assign an
SSN to an otherwise ineligible person for the purpose of receiving a death
underpayment. We are not suggesting such a policy. While we anticipate most
individuals applying for the death underpayment will have their own SSN, in those
circumstances where an SSN was never assigned to an individual, we believe SSA
should document the reason for the missing SSN in SPS.



                                             S
                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Additional Background

APPENDIX C – Flowchart of Death Underpayment Process

APPENDIX D – Scope and Methodology

APPENDIX E – Sampling Methodology

APPENDIX F – Sampling Results and Projections

APPENDIX G – Reasons for Death Underpayments

APPENDIX H – Example of Form SSA-1724

APPENDIX I – Agency Comments

APPENDIX J – OIG Contacts and Staff Acknowledgments
                                                         Appendix A
Acronyms
CSI        Center for Security and Integrity

CY         Calendar Year

DMF        Death Master File

IRS        Internal Revenue Service

LAF        Ledger Account File

LSDP       Lump Sum Death Payment

MACADE     Manual Adjustment Credit and Award Data Entry

MATSSC     Mid-Atlantic Social Security Center

MBR        Master Beneficiary Record

OASDI      Old-Age, Survivors and Disability Insurance

OCO        One-Check-Only

OIG        Office of the Inspector General

PHUS       Payment History Update System

POMS       Program Operations Manual System

SPS        Single Payment System

SSA        Social Security Administration

SSN        Social Security Number

Forms

SSA-1724   Claim for Amounts Due in the Case of a Deceased
           Beneficiary

SSA-1099   Social Security Benefit Statement
                                                                                      Appendix B
Additional Background
Form SSA-1724

Payees are required to submit a written request to claim a death underpayment along
with evidence that proves they are entitled to receive the underpayment. At least one of
the payees entitled to receive a portion of the underpayment must submit the written
request. No particular form is required; however, the Claim for Amounts Due in the
Case of a Deceased Beneficiary (SSA-1724 form) was designed for this purpose.1 The
SSA-1724 form requests information such as (1) the relationship of the applicant to the
deceased; (2) whether the deceased had a surviving spouse living in the same
household at the time of death; and (3) the number of persons in the highest class of
priority.2

Prior Audit

In a prior Office of the Inspector General (OIG) audit report3 we found weaknesses with
the manual One-Check-Only (OCO) system, which was the system used to process
Title II payments that were not paid through the Manual Adjustment Credit and Award
Data Entry system. The OIG audit report identified the following findings:

        •   SSA’s controls for processing OCO payments do not meet the standards for
            management controls as established by the Federal Managers’ Financial
            Integrity Act of 1982 and promulgated by the Office of Management and
            Budget Circular A-123, Management Accountability and Control.

        •   The duties of preparation and approval of OCO payment authorization forms
            among Program Service Center employees are not separated.

        •   Not all eight Program Service Centers require the position titles after a
            signature on a payment authorization form.



1
 SSA’s Program Operations Manual System (POMS), section GN 02301.050, Applications – Underpaid
Person Deceased.
2
 According to SSA’s POMS, section GN 02301.030, Underpaid Person is Deceased, death
underpayments must be made in the following order of priority: (1) surviving spouse, (2) child, (3) parent,
and (4) legal representative.
3
 Review of Internal Controls Over the Processing of One-Check-Only Payments, (A-05-97-61001),
November 1999.



                                                    B-1
      •   The Falcon system, which is the automated system by which SSA records all
          OCO payments, does not provide an audit trail to identify the individual who
          initiates the OCO payment.

      •   Access controls over the Falcon system at six Program Service Centers do
          not minimize the risk of unauthorized access.

SSA concurred with majority of the recommendations, but decided in May 2002 to
replace the manual OCO system with the automated Single Payment System (SPS).
According to SSA, the SPS was designed to ensure proper payment reviews and
incorporate a database for all OCO payments. Further, it was created to reduce the
number of inputs required for payments made outside of the Title II system, ensure the
timeliness of payments, prevent duplicate and erroneous payments, and document
management information




                                          B-2
                                                                                                                                           Appendix C
Flowchart of Death Underpayment Process
                                                                                  An individual dies before receiving a payment.




                                                                                                                         Yes
                                                                                                 Is family
                                                                                              member on the                        Pay family member through
                                                                                               individual’s                        MACADE (Note 1).
                                                                                                  MBR?



                                                                                                               No



                                                                                              Payee request
              Field Office will request required forms and evidence          No               underpayment
                                     (Note 3).                                                  in writing?
                                                                                                 (Note 2)




                                                                                                          Yes

                             No                                             No                    Proof of
       Refer to                               Relationship
      SSA FO                                  established?                                     relationship?
      (Note 4).
                                                                      Yes         Yes


                                                 Pay the payee through OCO or SPS (Note 5).
                                                                                    Appendix D
Scope and Methodology
To meet our objective we:

•   Reviewed Social Security Administration (SSA) policies and procedures for
    processing death underpayments through the following payments systems:
    (1) One-Check-Only (OCO) and (2) Single Payment System (SPS).

•   Reviewed a July 1996 Center for Security and Integrity investigation report of a SSA
    employee who fraudulently issued death underpayments to field and family
    members.

•   Reviewed prior SSA Office of the Inspector General reports related to death
    underpayments and the OCO system.

•   Obtained a data extract of 103,745 Title II death underpayments issued in CYs 2001
    and 2002 from SSA’s Payment History Update System (PHUS)1 and divided the
    population of 55,310 payments issued without the payees’ SSNs into the 4 groups.
    (see Appendix E for more information on the sampling methodology)

•   Sampled 100 death underpayments issued for $1 - $49,999 that were randomly
    selected and all 41 death underpayments issued for $50,000 or more and for these
    payments we:

        o Reviewed SSA records to include the Numident, Master Beneficiary Record
          (MBR), Alpha-Index File,2 PHUS, and various documents scanned into the
          Paperless system3 to determine (1) if the correct payee received the payment,
          (2) if the payments were coded correctly, (3) the death status of the
          beneficiary, and (4) the valid SSN for the payee;

        o Reviewed SSA-1099 forms issued for all sampled death underpayments to
          determine if the required information shared with the IRS; and



1
  The PHUS database is the main source used for the annual benefit statement. It contains a historical
record of Title II payment related actions starting with the year 1984.
2
  The Alpha-Index File maintains identifying information of each SSN numberholder. The system allows
for the grouping together, in one code group, all surnames which have the same basic consonant sounds.
3
 Paperless is a document imaging and management system that SSA uses in the payment centers to
manage the work.


                                                  D-1
        o Projected the results of our 100 randomly sampled death underpayments
          (see Appendix F for the projected results).

•   Sampled 95 death underpayments4 that were randomly selected and for these
    payments we reviewed SSA records to include the Numident, MBR, PHUS, and
    various documents scanned into the Paperless system to determine (1) if the
    payments were properly coded and (2) whether the beneficiaries were actually
    deceased.

•   Reviewed beneficiary case files for sample death underpayments as appropriate.




4
 The 95 payments include (1) 50 possible lump sum death payments, (2) 30 payments that were
processed with no date of death on the Death Master File, and (3) 15 payments that did not contain a
name and address (see Appendix E).


                                                  D-2
                                                                     Appendix E
Sampling Methodology
For Calendar Years 2001 and 2002, we obtained a data extract of 103,745 Title II death
underpayments totaling about $135 million from the Social Security Administration’s
(SSA) Payment History Update System, where 55,310 were processed without the
payees’ SSNs. To focus our analysis better, we divided the population into four
groupings. The sample underpayments reviewed in all 4 groupings were randomly
selected except in Grouping 1, where we conducted an exhaustive review of the
41 underpayments that were $50,000 and above. We projected our results for the
underpayments ranging from $1 - $49,999 in Grouping 1.



                     Grouping 1: Death Underpayments
                        Number of                         Sample        Type of
         Strata        Occurrences       Dollar Value      Size         Sample

      $1 - $49,999         52,817         $70,049,990        100        Random

   $50,000 & Above             41          $2,842,197         41      Exhaustive

         Total             52,858         $72,892,187        141



            Grouping 2: Possible Lump Sum Death Payments
                        Number of                         Sample        Type of
        Amount         Occurrences      Dollar Value       Size         Sample
        $255.00            986           $251,430           50          Random




                                         E-1
                        Grouping 3: Payments Processed with
                        No Date of Death on Death Master File
        Deceased             Number of                               Sample          Type of
         Status             Occurrences         Dollar Value          Size           Sample
         Living1               521               $561,449              10            Random
      No LAF Code                160              $125,889              10           Random
                    2
        Deceased                 734            $1,093,006              10           Random
            Total              1,415            $1,780,344              30



            Grouping 4: Payments without Names and Addresses
        Number of
       Occurrences              Dollar Value            Sample Size          Type of Sample
           51                     $93,155                  15                   Random
    Note: We did not conduct any further analysis of grouping four because we found SSA
    made manual corrections to prevent the payments from being issued.




1
 The Ledger Account File (LAF) on the MBR record indicates the payment status of the beneficiary and
auxiliary beneficiary. The LAF codes for these payments showed that beneficiaries were alive and
currently receiving benefits.
2
  The LAF codes for these payments showed that the beneficiaries’ benefits had been terminated due to
the death.




                                                 E-2
                                                                      Appendix F
Sampling Results and Projections
For the 52,817 Title II death underpayments contained in our sample population, we
randomly selected a sample size of 100 payments from the Social Security
Administration’s (SSA) Payment History Update System (PHUS). Based on our sample
results, we project that SSA could have located the Social Security numbers (SSN) for
97 percent (approximately 51,232) of the death underpayments processed without the
payees’ SSNs by reviewing the completed SSA-1724 forms or querying SSA’s Alpha-
Index File. For the remaining three payments, two payments related to the estate of the
deceased beneficiary and we were not able to locate the SSN for the third payment.
We did not project these three payments. The chart below provides a detailed
breakdown of the results of our sample along with the attribute projections.



                     Sample Results and Projections

Population size in items - PHUS                                             52,817
Sample size in items                                                           100
                                  Attribute Projections

Sample cases – Number of SSNs identified through SSA records                    97

Projection – Number of SSNs identified through SSA records                  51,232

Projection lower limit                                                      48,821

Projection upper limit                                                      52,381


Sample cases – Number of SSNs Located by Querying the Alpha-Index
                                                                                55
File
Projection – Number of SSNs Located by Querying the Alpha-Index File        29,049

Projection lower limit                                                      24,453

Projection upper limit                                                      33,526




                                           F-1
                                   Attribute Projections

Sample cases – Number of SSNs Included on the SSA-1724 form        42

Projection – Number of SSNs Included on the SSA-1724 form       22,183

Projection lower limit                                          17,776

Projection upper limit                                          26,782
Note: All projections are at the 90-percent confidence level.




                                              F-2
                                                                                  Appendix G
Reasons for Death Underpayments
Most of the sampled Title II death underpayments were issued because the deceased
beneficiaries’ final benefit payments were returned to the Agency the month of their
death. Specifically, 70 of the 100 sampled death underpayments were issued because
of returned payments as shown in the table below. The remaining 30 death
underpayments were issued because of (1) unpaid benefits prior to death,
(2) reconsideration of benefits, and (3) refund of the Supplementary Medical Insurance.

                           Reasons for Death Underpayments
                                                        Number of Death
                         Reasons                        Underpayments
  Returned Payments                                                                 70
  Unpaid Benefits (1)                                                               25
  Reconsideration of Benefits (2)                                                    3
  Refund of Supplementary Medical Insurance (3)                                      2
  Total                                                                            100
 Note:(1) The types of unpaid benefits included disability payments and Automatic Earnings
      Reappraisal Operation adjustments, which are benefit increases that are computed automatically
      within SSA’s systems.
      (2) For these payments, the deceased beneficiary’s benefits were initially denied, terminated, or
      incorrectly computed.
      (3) The Supplementary Medical Insurance is known as Part B of Medicare and is a voluntary
      insurance provided under Title XVIII of the Social Security Act.
                                  Appendix H
Example of Form SSA-1724 (Claims for
Amounts Due in the Case of a Deceased
Beneficiary)




                    H-1
H-2
                  Appendix I

Agency Comments
                                           SOCIAL SECURITY
MEMORANDUM                                                                         33178-24-1104


Date:       July 2, 2004                                                           Refer To: S1J-3

To:         Patrick P. O'Carroll, Jr.
            Acting Inspector General

From:       Larry W. Dye /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Evaluation Report “Title II Underpayments for
            Deceased Beneficiaries” (A-03-03-13014) – INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:




                                                          I-1
SSA ResponseCOMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG)
DRAFT EVALUATION REPORT “TITLE II UNDERPAYMENTS FOR DECEASED
BENEFICIARIES” (A-03-03-13014)


Thank you for the opportunity to review and comment on the draft report. We appreciate the
thorough analysis and acknowledge that we can strengthen the payment reporting and accounting
process for Title II deceased beneficiaries. We have already begun to address a number of the
issues contained in the report and a description of those efforts is provided in our comments to
the recommendations below.

While we agree with the analysis and conclusions presented in the report, we believe that the
dollar amount of the problem is exaggerated. On Page 4 of the report, under the section “Tax
Implications,” the fifth sentence of the paragraph says that “…almost $73 million of potentially
taxable income was not reported to IRS by SSA.” According to the first table on page E-1, this
figure represents the total dollar value of death underpayments in the sample. Death
underpayments are still Social Security benefits, and only a maximum of 85 percent of Social
Security benefits may be subject to income tax. It appears that a figure of no greater than
$62 million of potentially taxable income would be appropriate. Of course, 85 percent is a
maximum and, for most people, the tax liability will be even less. Therefore, we suggest that
OIG estimate the actual amount of taxable income.

Recommendation 1

Require collection of the Social Security number (SSN) from all claimants of death
underpayments to ensure taxable income is reported to the Internal Revenue Service (IRS) by
SSA.

Response

We agree with this recommendation to the extent that we should collect SSNs for all payees who
have SSNs. However, as worded, the recommendation raises a key concern for us as it implies
that we would assign an SSN to an otherwise ineligible person for the purpose of receiving a
one-time underpayment. We do not consider a one-time only payment a valid reason for
assigning an SSN. Therefore, we will collect SSNs of individuals who are receiving one-time
payments if they have an SSN; however, we will not assign an SSN for the sole purpose of
receiving a payment.




                                               I-2
Recommendation 2

Ensure that the SSA-1724 form is revised to make the payee’s SSN a mandatory field and
develop completion instructions in POMS.

Response

We agree that a payee’s SSN must be provided if the payee has an SSN. Form SSA-1724 is
being revised to make the collection of the SSN mandatory for payees who have SSNs. We
expect that the form revision will be completed by the first quarter of fiscal year 2005.

Recommendation 3

Ensure that the SPS payment system is revised to make the payee’s SSN a mandatory field.

Response

We agree. This recommendation supports the policy change for requiring the SSN from all
payees who have SSNs. However, as noted in our response to Recommendation 1, override
capability will be needed for those instances where the person receiving the underpayment does
not have an SSN and is deemed ineligible to obtain one.

Recommendation 4

Educate benefit authorizers on the correct procedures for processing Lump Sum Death Payments
and death underpayments.

Response

We agree. We will issue instructions and reminders once the new procedures discussed in
Recommendations 1 and 2 are ready for release.

Recommendation 5

Make the necessary corrections for the payments that were referred during the audit.

Response

We agree. We have already referred these accounts to the jurisdictional processing center for
correction.




                                               I-3
                                       Appendix J

OIG Contacts and Staff Acknowledgments
OIG Contacts
Walter Bayer, Director

Cylinda McCloud-Keal, Audit Manager

Acknowledgments
In addition to those named above:

Frank Trzaska, Auditor-in-Charge

Virginia Montelpare, Auditor

Charles Zaepfel, Computer Specialist

Annette DeRito, Writer-Editor
                      DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
